                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-24                                    Office of Inspections                                      April 2013




                       Review of
         the Process for Establishing Language
                 Designated Positions




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                              OF THE REVIEW

        This review was conducted in accordance with the Quality Standards for Inspection and
Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

        Policy Implementation: whether policy goals and objectives are being effectively
          achieved; whether U.S. interests are being accurately and effectively represented; and
          whether all elements of an office or mission are being adequately coordinated.

        Resource Management: whether resources are being used and managed with
          maximum efficiency, effectiveness, and economy and whether financial transactions
          and accounts are properly conducted, maintained, and reported.

        Management Controls: whether the administration of activities and operations meets
          the requirements of applicable laws and regulations; whether internal management
          controls have been instituted to ensure quality of performance and reduce the
          likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
          whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this review, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


                            Table of Contents
Key Judgments                                                                       1
Context                                                                             2
Language Designated Position Findings                                               3
  Mission-Recommended Language Requirements Need Closer Review                      3
  Bureau-Recommended Language Requirements Need Closer Review                       4
  Transparency Needed in Language Training Costs                                    6
  Other Issues That Affect Language Designated Positions                            7
  Objective Measures of Need                                                        8
Language Incentive Pay Findings                                                     9
List of Recommendations                                                            11
Abbreviations                                                                      13
Appendix I:    Language Designated Positions by Bureau and Function                14
Appendix II: Language Designated Positions by Percent of Department Positions in
               Country That Are Language Designated                                15
Appendix III: Language Designated Positions by Mission Size                        21
Appendix IV: Language Designated Positions by Language and Number of Students in
               Language Training                                                   27
Appendix V: OIG Recommendations Related to Language Designated Positions           29
Appendix VI: Language Designated Positions Guidance                                33
Appendix VII: Bureau of Human Resources Strategic Plan                             35




                                  iii
                     SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
      The Department of State (Department) spent about $195 million providing language
       training to its employees in FY 2012. Given the strategic importance of language
       training, and its cost, the Department needs to give greater attention to how it determines
       language requirements.

      This review and other inspections conducted by OIG found that some positions identified
       as language designated do not in fact require foreign language skills. Other positions are
       not language designated but should be, as suggested by the Benghazi Accountability
       Review Board, which called for providing staff at high-threat posts with more language
       training.

      Oversight of language designated positions (LDP) is insufficient to identify when the
       Department is over- or underdesignating language requirements. Most decisions are made
       at the embassy level. The Department does not review language requirements across
       embassies and regional bureaus to facilitate consistent application of language
       designation criteria and appropriate distribution given U.S. policy priorities.

      Stronger oversight would result in better use of Department resources. Establishing
       language requirements at the professional level at an embassy can trigger language
       training lasting from 6 months to 2 years, for which the OIG team estimates a cost of
       between $105,000 and $480,000 per student. Eliminating language requirements for
       positions that do not require language skills would free up language training funds for
       positions where language skills are most needed.

      The Language Incentive Pay (LIP) program, designed to encourage officers to gain and
       maintain language skills in certain hard and super hard languages, has, until recently,
       suffered from lack of oversight. The Department is now closely reviewing the program,
       whose costs totaled $11.4 million in 2012.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The review took place in Washington, DC, between August 2011 and October 2011 and between
October 2012 and January 2013. (b) (6)
                                conducted the review.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context
        Proficiency in foreign languages is essential to perform certain functions overseas. For
other functions, language skills are helpful. Language skills enhance the Department’s ability to
engage with foreign audiences, report on events, and oversee mission operations.

        The Department designates language proficiency requirements in speaking and reading
levels by position. Achieving the professional proficiency level, a speaking-3/reading-3 (3/3),
would allow individuals to participate effectively in most formal and informal conversations and
read with almost complete comprehension on unfamiliar subjects. The Department does not
require officers trained in a language to use those skills on more than one assignment, normally
does not require officers entering the Department with language skills to serve in missions
necessitating those skills,1 and rarely directs assignments2 (other than for entry-level officers).
These factors increase the need for formal language training. In 2012, 1,829 Department
employees started language training.

        Numerous Government Accountability Office reports over the past 10 years have
highlighted Department challenges in meeting its foreign language needs.3 Most reports address
shortfalls in the number of language-qualified officers serving in the Near East and South Central
Asia and the number of officers with supercritical language skills such as Arabic and Chinese.

        In 2010, the Department revised the process for identifying LDP in order to strengthen
and standardize its use across missions. Under the revised process, LDPs are recommended by
overseas missions and approved by regional bureaus and the Bureau of Human Resources
(DGHR) every 3 years, rather than every year.4 The triennial review process was designed to
generate in a more thoughtful review of language requirements. According to 13 Foreign Affairs
Manual (FAM) 221, ―LDPs should be designated only for those positions where language
proficiency is essential, rather than merely helpful or convenient.‖

       Of the Department’s 9,762 direct-hire overseas positions, 4,121 (42 percent) are language
designated. About 60 percent of those positions are in Europe, Central America, and South
America. Appendix I shows LDPs by bureau and function, Appendixes II and III by mission, and
Appendix IV by language. The number of LDPs increased by 42 percent from 2002 to 2011,
which DGHR attributes to the growth in the Foreign Service, the need for more Chinese and
Arabic speakers, and consular section expansions in Brazil, Mexico, India, and China.




1
  A notable exception is the recently revised recruitment language program under which applicants who receive a
hiring preference for possessing certain language skills now must use those skills on a future assignment.
2
  When an officer’s assignment is nearing completion, he or she bids on a list of available positions.
3
  GAO-09-955, GAO-09-1046T, GAO-07-1154T, GAO-06-894, GAO-06-535, and GAO-04-139.
4
  Functional bureaus provide LDP recommendations to regional bureaus. Disagreements are taken to DGHR.
                                            2
                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Language Designated Position Findings
         The revised LDP process did not achieve the rigor necessary to channel Department
resources to developing and maintaining language skills where they are most needed. Since
January 2011, OIG has recommended eliminating 64 LDPs, mostly in Europe, because the
officers occupying those positions use English in the performance of their duties. At the same
time, other missions need more LDPs or LDPs rated at higher levels. Recent findings by the
Benghazi Accountability Review Board mirror OIG findings related to insufficient LDPs in
difficult locations. Appendix V shows recent OIG recommendations to increase and decrease
language requirements at various missions.

Mission-Recommended Language Requirements Need Closer Review

        The process for identifying LDPs starts at overseas missions. During the first triennial
LDP review in 2010 and 2011, DGHR instructed all regional bureaus to consult with their
overseas missions for ―an in-depth review of all LDP requirements for positions at embassies.‖
DGHR reiterated that ―operational need‖ is the decisive criterion in determining when language
proficiency is ―essential‖ rather than ―merely helpful or convenient,‖ as noted in 13 FAM 221 b.
DGHR also directed missions and bureaus to consider the official designation of national
language, the importance that host nation interlocutors attach to speaking their language, the
general level of English language use, the quality of local interpretation and translation services,
and the importance of being able to speak the host nation language in public or at
representational events.5 During OIG inspections conducted after January 2011, OIG found that
some missions never reviewed LDPs and that others did not apply the FAM criteria or DGHR
guidance.

        Regional bureaus applied varying levels of scrutiny to the language recommendations
they received from their missions. The Bureau of European and Eurasian Affairs relied on
missions to review and recommend LDPs and did not alter any of their recommendations.
Another regional bureau could not explain why positions were designated in an indigenous
language of one country, whereas no positions were designated in an indigenous language of a
different country where three times as many people spoke the language.

        Regional bureaus that have difficulty attracting candidates and have difficult languages
reviewed mission-recommended LDPs more closely and applied their own criteria.
Representatives in the Bureau of East Asian and Pacific Affairs considered a number of factors,
including the strategic importance of the country; the likelihood that language skills could be
used in future assignments; and, to some extent, cost. To develop a larger pool of Chinese
speakers, the Bureau of East Asian and Pacific Affairs allowed its missions to apply the
―essential‖ criteria liberally for that language. On the other hand, representatives the OIG team
spoke with in the Bureaus of Near Eastern Affairs (NEA), South and Central Asian Affairs, and
African Affairs acknowledged keeping LDPs artificially low in both number and level to attract
more bidders.6 Officers in these locations must look for ways of conducting diplomacy without


5
 Appendix VI summarizes DGHR guidance to missions.
6
 Bureau representatives stated they sometimes have difficulty attracting bidders in difficult locations that require 2
years of language training, a frequent problem in NEA.
                                              3
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

using language skills such as relying on locally employed (LE) staff to provide translation when
dealing with government officials or visa applicants.

        No formal mechanism exists to assess whether embassies and regional bureaus are
applying LDP criteria. During the 2010–2011 triennial review, neither missions nor regional
bureaus were required to provide DGHR documentation justifying their LDP recommendations.
Although requiring missions to produce documentation justifying every LDP periodically has
merit, a number of bureaus pointed out that this task would generate an unwieldy amount of
information to review. Requiring each embassy instead to submit a memorandum explaining its
overall rationale for identifying LDPs would be a more realistic approach and would provide
regional bureaus and DGHR with a factual basis for evaluating the merits of embassy LDP
recommendations.

Recommendation 1: The Bureau of Human Resources should require every embassy to
provide narrative explaining the rationale behind its recommendations for language designated
positions. The narrative should address major factors driving the essential designations such as
those outlined in the Bureau of Human Resources’ guidance—English language penetration and
the local culture and language—and demonstrate why incumbents have found language skills to
be essential to the performance of their duties. It should also identify any new language
designated positions that are needed. (Action: DGHR)

Bureau-Recommended Language Requirements Need Closer Review

       Just as regional bureaus do not adequately review the recommendations of the missions,
senior Department officials do not adequately review recommendations from the regional
bureaus. DGHR is responsible for the Department’s LDPs and, as noted in 13 FAM 220 a., the
Director General makes final decisions on whether positions should be language designated.
DGHR representatives indicated that they had no expertise or other basis to challenge regional
bureau recommendations. The Under Secretary for Management similarly stated that he relies on
regional bureau assistant secretaries to define LDP requirements.

        Lack of high-level review has led to anomalies. Proficiency requirements for officers
performing similar functions across missions and bureaus vary widely. For example, there are
two language designated general services officer positions in Switzerland, three in France, and
four in Italy; however, there are no language designated general services officer positions in
Haiti, Thailand, or Indonesia and only one such position in Egypt. The latter four countries all
have fewer English language speakers and more difficult working environments.

        Some bureaus—NEA, the Bureau of South and Central Asian Affairs, and the Bureau of
African Affairs in particular—acknowledge that they keep language requirements low to attract
bidders. OIG has pointed out in numerous reports the drawbacks of underdesignating positions.7
In Jerusalem, for example, political officer Arabic skills were insufficient to conduct business in
the West Bank. In Muscat and Kuwait, language limitations undermined political and public
diplomacy outreach efforts. In Afghanistan and Pakistan, the shortage of language qualified
officers limited the missions’ ability to participate in public debates with fluency in local
languages.

7
    See Appendix V.
                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The table below and Appendixes II and III show LDPs, including those at the 3/3 level,
for various missions. There are only 15 3/3 level LDPs in Egypt, 4 in Pakistan, and 10 in Iraq,
whereas Italy, Greece, and Ecuador maintain 50, 10, and 42 such LDPs, respectively. Reviewing
LDPs at a macro level with associated costs would better enable the Department to determine
whether training funds are being spent where most needed.

       Country           Number of        Number of          Percent of        Number of
                         Department       Department        Department        Department
                         Positions in     Positions in      Positions in  Positions in Country
                          Country        Country That      Country That    That Are LDPs at
                                           Are LDPs          Are LDPs      the S-3/R-3 Level
 Colombia                         114                103              90%                   79
 Guatemala                         48                 42              88%                   32
 El Salvador                       52                 43              83%                   32
 Spain                             49                 40              82%                   28
 Ecuador                           65                 53              82%                   42
 Peru                              70                 55              79%                   45
 China                            458                327              71%                   30
 Italy                            101                 70              69%                   50
 France                           123                 82              67%                   58
 Japan                            121                 67              55%                   41
 Israel                           133                 48              36%                   24
 Sweden                            26                  9              35%                    9
 Greece                            65                 19              29%                   10
 Egypt                            144                 30              21%                   15
 Afghanistan                      364                 32               9%                    6
 Iceland                           12                  1               8%                    1
 Pakistan                         252                 20               8%                    4
 Sudan                             49                  3               6%                    0
 Iraq                             425                 19               4%                   10

        The Under Secretary for Political Affairs (P) and the Deputy Secretary for Management
and Resources (D) do not provide input on the distribution of LDPs across bureaus or the
associated language training costs. All regional bureau assistant secretaries fall organizationally
under P, and D is responsible for Departmentwide resources. Both P and D could review LDPs
every 3 years in coordination with DGHR’s revised LDP process or every 4 years in conjunction
with the Department’s Quadrennial Diplomacy and Development Review. The results of the
review would affect the number of LDPs at various missions and, by extension, where language
training funds are spent.

Recommendation 2: The Bureau of Human Resources should prepare a report for the Under
Secretary for Political Affairs and the Deputy Secretary for Management and Resources that lists
recommended language designated positions by mission; assesses the extent to which the
distribution is consistent with U.S. interests; highlights the cost implications of the
recommendations; and requests input on the distribution of language designated positions across
missions and bureaus. (Action: DGHR, in coordination with P and D)




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Transparency Needed in Language Training Costs

        No office in the Department maintains figures showing the full cost of language training.
The estimates in this report were generated by the OIG team and include costs of instruction,
officer salaries while in training, per diem and related costs to bring officers (and sometimes
their household effects) back to the United States for training, and housing and other support
costs for officers attending overseas training facilities.

         The OIG team estimates training students to the 3/3 level in easier world languages such
as Spanish can cost $105,000; training in hard languages such as Russian can cost $180,000; and
training in super hard languages such as Chinese and Arabic can cost up to $480,000 per
student.8 Students learning super hard languages to the 3/3 level generally spend one year
domestically at the Foreign Service Institute (FSI) and then a second year at an overseas training
facility.

        FSI, DGHR, and the Department’s central fund for American salaries pay nearly all of
the costs of language training; the costs are almost never borne by the missions or bureaus
recommending LDPs. The OIG team estimates the Department spent $195 million providing
language training in 2012, 40 percent of which represents student salaries while they are in
training. DGHR, FSI, and the central fund spent about $158 million9 in FY 2012 for training
domestically at FSI. Overseas training facility costs—borne by FSI, DGHR, the central fund, and
regional and functional bureaus—are estimated to total an additional $37 million.10

        Cost is not a factor in the language designation process. Given a governmentwide need to
be more cost conscious, language training costs should be transparent and part of the LDP
process. Eliminating language training for positions that do not require language skills would
free up funds for additional language training elsewhere.

Recommendation 3: The Bureau of Budget and Planning, in coordination with the Foreign
Service Institute and the Bureau of Human Resources, should determine training costs by
language and level and make those costs available to missions, bureaus, under secretaries, and
deputy secretaries that recommend and approve language requirements. (Action: BP, in
coordination with FSI and DGHR)

       Regional bureaus do not consider cost implications when recommending LDPs. At
present, regional bureaus have no incentive to control language training costs. The most effective
way of ensuring that regional bureaus scrutinize LDPs is to require that they bear some
responsibility for the costs. The Department has a number of charging options. The Department

8
  The OIG team’s estimate for easy and hard languages was developed based on FSI’s weekly tuition rate, the
standard number of weeks for 3/3 training, the salary of a mid-level Foreign Service officer, benefits based on
Congressional Budget Office figures, and per diem based on 14 FAM 575.3 and Federal Travel Regulations. Cost
estimates for super hard languages were developed using the above methodology for the domestic portion of training
and data provided by Embassy Beijing and NEA and data in the Department’s standard overseas support cost model
for the overseas portion of language training.
9
  Figures were developed based on data from FSI and DGHR and on per diem based on 14 FAM 575.3 and Federal
Travel Regulations.
10
   Figures were developed based on data from FSI, DGHR, Embassy Beijing, the American Institute of Taiwan, and
NEA and assuming salaries for mid-level officers, benefits based on Congressional Budget Office figures, and
overseas support costs using the Department’s standard overseas support cost model.
                                            6
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

could establish some form of an LDP or language training cap for each regional bureau. During
the triennial LDP process, bureaus with difficult languages and greater needs would receive
larger caps. Other more elaborate options include reimbursable agreements (already used by FSI
to charge other agencies for language training) or the working capital fund.11 Under both of these
options, regional bureaus would receive base funding transfers and would pay for the language
training associated with their LDPs.12

Recommendation 4: The Bureau of Budget and Planning, in coordination with the Bureau of
Human Resources, the Bureau of Administration, the Foreign Service Institute, and the regional
and functional bureaus that fund positions, should determine the best means for holding bureaus
accountable for the training costs associated with their language designated positions. (Action:
BP, in coordination with DGHR, A, FSI, AF, EAP, EUR, NEA, SCA, WHA, and CA)

        Most of the Department’s language training is in world languages that can be used more
than once in an officer’s career. Using the data shown in Appendix IV, 67 percent of the students
starting language training in 2012 were enrolled in Spanish (23 percent), French (13 percent),
Chinese-Mandarin (9 percent), Portuguese (8 percent), Arabic (8 percent), or Russian (6
percent). However, the Department does not require officers trained in a language to use those
skills on more than one assignment.

Other Issues That Affect Language Designated Positions

         Several factors outside the FAM criterion influence language designations. In addition to
factors mentioned earlier, promotion and tenure policies tied to language skills also influence the
number and level of LDPs. Some LDPs are established to allow opportunities for entry-level
personnel to demonstrate language proficiency before being tenured. LDPs at the 3/3 level
facilitate officer promotions into the Senior Foreign Service.13 Many believe asymmetric
designations with lower reading levels are more appropriate, but serving in those positions may
adversely affect officers’ ability to progress within the Foreign Service because promotion and
tenure requirements are generally tied to symmetric designations. Others believe the Department
should train to the 4/4 level for some positions. One bureau established LDPs not because they
were essential but to develop cadres of officers with those language skills to bid on future
assignments.

        The existing FAM criterion is valuable in that it should result in a list of only those
positions for which language skills are essential.14 However, a working group that includes the

11
   The working capital fund provides the most flexibility in responding to changing language training demands, but
it is also the most difficult to set up.
12
   Some bureaus oppose options entailing base fund transfers to the regional bureaus because of the administrative
burden associated with setting up and administering such a system. DGHR and FSI also believe that having regional
bureaus control language training funds would result in less language training, as funding would be used for other
bureau priorities. The OIG team believes the recommendation is necessary to encourage bureaus to review and
prioritize LDPs and to consider the associated costs. The Bureau of Consular Affairs pointed out that functional
bureaus that own and fund positions should also receive an LDP budget. The OIG team agrees with this approach in
principle and encourages the Bureau of Budget and Planning to devise a practical means of doing so.
13
   As noted in 13 FAM 211.1 a., officers should have language proficiency to the 3/3 level in two languages before
reaching the Senior Foreign Service. According to 3 FAM 2324.4 c., an officer must have achieved a 3/3 proficiency
level in any language in order to be promoted into the Senior Foreign Service.
14
   Assuming additional oversight as recommended in this report.
                                            7
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

regional bureaus and FSI is needed to determine what other designations, policies, or procedures
could fulfill these other needs of the Foreign Service. As a part of the process, the working group
could consider requiring officers who receive language training to serve more than one tour at a
mission where the language is required, thereby reducing the need and cost for additional
training and positions.

Recommendation 5: The Bureau of Human Resources should convene a multibureau working
group to review the promotion and tenure policies related to language skills, the best way to
develop cadres of language-qualified officers in key languages, and the existing Foreign Affairs
Manual criteria on language designation. (Action: DGHR)

Objective Measures of Need

        The Department would benefit from adopting quantifiable measures to help determine
whether language designations are necessary. One measure of LDP need is whether incumbents
are using their language skills regularly on ―essential‖ aspects of their work. If the mission or
bureau repeatedly requests that DGHR waive language requirements for a position, language
skills may not be needed for the position. FAM criteria to this effect were in place in the past but
were dropped in 2012.15 Testing officers in LDPs on their language skills at the conclusion of
their assignments would also provide a measure of how intensely they used their language skills.
If officers’ test scores deteriorated at the mission, this might indicate that language skills are not
needed at the designated level.16 Both DGHR and FSI note, however, that testing officers at the
end of their assignments would be a costly endeavor.

Recommendation 6: The Bureau of Human Resources should reinstate the Foreign Affairs
Manual provision that eliminated language designated position requirements for all positions for
which two consecutive waivers were provided. (Action: DGHR)




15
   13 FAM 221 b. (2) stated that LDPs were to be dropped automatically if waivers were given on two consecutive
assignments. DGHR did not consistently enforce this requirement, which was eliminated on April 19, 2012. DGHR
stated that the language waiver process has been strengthened and that language waivers are now provided only if
something unexpected happens. DGHR believes the requirement will unnecessarily penalize missions if something
unexpected happens twice in a row.
16
   Test scores could also assist supervisors in documenting officers’ performance.
                                            8
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Language Incentive Pay Findings
        The LIP program has, until recently, suffered from lack of oversight. The program is
outlined in 3 FAM 3911.1: ―To foster the development and use of foreign language skills
deemed critical to its mission, the Department provides monetary incentives for proficiency in
designated hard and extremely hard languages.‖ Of 72 languages included in LDPs, incentive
pay is provided for 50, including Chinese, Arabic, Urdu, Japanese, Russian, Greek, Czech,
Estonian, and Slovenian.

        The list of LIP languages has not been adjusted for years, and it is unclear why LIP is
provided for some languages but not others. The FAM criteria do not elaborate on how to select
LIP languages. The Department provides LIP at many missions that do not have difficulty
attracting bidders. Less than one-fifth of the countries where the Department provided LIP in
2012 appeared on DGHR’s 2012 historically difficult-to-staff list and the missions did not have a
significant number of hard-to-fill positions. For example, employees with Greek language
proficiency received LIP payments of $200,000 in FY 2012, although that mission is not
historically difficult to staff and had no hard-to-fill positions last year. Poland also is not
historically difficult to staff and had no hard-to-fill positions last year, yet employees received
$343,000 in LIP. Employees in Japan received $392,000 in LIP even though Japan had no hard-
to-fill positions in 2012. If LIP is provided to encourage officers to bid on assignments, it is
questionable why many of these languages are LIP designated.

         If LIP is provided primarily to encourage officers to learn hard and super hard languages
that are strategic and for which the Department is trying to develop cadres of language-qualified
officers, the Department should note these objectives in the FAM, implement a formal process
whereby strategic languages are identified, and define the number of officers needed by language
to fill future positions. This information could feed into decisionmaking on which languages
incentives are necessary. The Department of Defense’s (DOD) review and preparation of a
Strategic Language List could serve as a model. Every 2 years, DOD conducts a strategic review
to determine the languages it should focus on to meet strategic and operational needs over the
next 10 to 15 years. After considering national strategic guidance, intelligence assessments,
ongoing operations, and input from the combatant commands, joint staff, armed services, and
DOD agencies, DOD prepares a Strategic Language List to inform policies and resource
allocation decisions as DOD recruits, trains, tests, and retains its personnel. Additionally,
providing officers some or all LIP payments at the conclusion of their assignments could provide
a greater incentive for officers to use and maintain their language skills.17

       A Language Policy Working Group, composed of representatives from DGHR, FSI, and
the regional bureaus, has been reviewing LIP for the past year and plans to recommend
significant changes in LIP languages. The OIG team applauds these efforts.




17
  DGHR opposes testing at the end of an assignment, pointing out it would be costly to do so and opining that it is
better to give officers incentive to learn and use LIP language skills through positive reinforcement, which LIP
currently provides.
                                             9
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 7: The Bureau of Human Resources should publish in the Foreign Affairs
Manual a new section that states the criteria for designating a language for language incentive
pay. (Action: DGHR)

Recommendation 8: The Bureau of Human Resources, in coordination with the Foreign
Service Institute and the regional bureaus, should review language incentive pay and add or
remove any language that does not meet the newly revised criteria. (Action: DGHR, in
coordination with FSI, AF, EAP, EUR, NEA, SCA, and WHA)

Recommendation 9: The Bureau of Human Resources, in coordination with the regional
bureaus, should determine whether providing some or all language incentive payments at the
conclusion of officer assignments is feasible and, if so, publish this policy in the Foreign Affairs
Manual. (Action: DGHR, in coordination with AF, EAP, EUR, NEA, SCA, and WHA)




                                        10
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Human Resources should require every embassy to
provide narrative explaining the rationale behind its recommendations for language designated
positions. The narrative should address major factors driving the essential designations such as
those outlined in the Bureau of Human Resources’ guidance—English language penetration and
the local culture and language—and demonstrate why incumbents have found language skills to
be essential to the performance of their duties. It should also identify any new language
designated positions that are needed. (Action: DGHR)

Recommendation 2: The Bureau of Human Resources should prepare a report for the Under
Secretary for Political Affairs and the Deputy Secretary for Management and Resources that lists
recommended language designated positions by mission; assesses the extent to which the
distribution is consistent with U.S. interests; highlights the cost implications of the
recommendations; and requests input on the distribution of language designated positions across
missions and bureaus. (Action: DGHR, in coordination with P and D)

Recommendation 3: The Bureau of Budget and Planning, in coordination with the Foreign
Service Institute and the Bureau of Human Resources, should determine training costs by
language and level and make those costs available to missions, bureaus, under secretaries, and
deputy secretaries that recommend and approve language requirements. (Action: BP, in
coordination with FSI and DGHR)

Recommendation 4: The Bureau of Budget and Planning, in coordination with the Bureau of
Human Resources, the Bureau of Administration, the Foreign Service Institute, and the regional
and functional bureaus that fund positions, should determine the best means for holding bureaus
accountable for the training costs associated with their language designated positions. (Action:
BP, in coordination with DGHR, A, FSI, AF, EAP, EUR, NEA, SCA, WHA, and CA)

Recommendation 5: The Bureau of Human Resources should convene a multibureau working
group to review the promotion and tenure policies related to language skills, the best way to
develop cadres of language-qualified officers in key languages, and the existing Foreign Affairs
Manual criteria on language designation. (Action: DGHR)

Recommendation 6: The Bureau of Human Resources should reinstate the Foreign Affairs
Manual provision that eliminated language designated position requirements for all positions for
which two consecutive waivers were provided. (Action: DGHR)

Recommendation 7: The Bureau of Human Resources should publish in the Foreign Affairs
Manual a new section that states the criteria for designating a language for language incentive
pay. (Action: DGHR)

Recommendation 8: The Bureau of Human Resources, in coordination with the Foreign
Service Institute and the regional bureaus, should review language incentive pay and add or
remove any language that does not meet the newly revised criteria. (Action: DGHR, in
coordination with FSI, AF, EAP, EUR, NEA, SCA, and WHA)



                                       11
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 9: The Bureau of Human Resources, in coordination with the regional
bureaus, should determine whether providing some or all language incentive payments at the
conclusion of officer assignments is feasible and, if so, publish this policy in the Foreign Affairs
Manual. (Action: DGHR, in coordination with AF, EAP, EUR, NEA, SCA, and WHA)




                                        12
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
D                Deputy Secretary for Management and Resources

Department       U.S. Department of State

DGHR             Bureau of Human Resources

DOD              Department of Defense

FAM              Foreign Affairs Manual

FSI              Foreign Service Institute

LDP              Language designated position

LE               Locally employed (staff)

LIP              Language Incentive Pay

NEA              Bureau of Near Eastern Affairs

OIG              Office of Inspector General

P                Under Secretary for Political Affairs




                            13
                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Appendix I: Language Designated Positions by Bureau and
Function18
Language Designated Positions by Bureau

         Region/Bureau                 Number of        Number of          Percent of       Number of
                                       Department       Department        Department        Department
                                        Positions        Positions         Positions         Positions
                                        Overseas         Overseas          Overseas          Overseas
                                                         That Are          That Are          That Are
                                                          LDPs               LDPs           LDPs at the
                                                                                           S-3/R-3 Level
African Affairs                                1,224               344             28%               226
East Asian and Pacific Affairs                 1,648               708             43%               343
European and Eurasian Affairs                  2,218             1,017             46%               666
International Organizations                       93                12             13%                  6
Near Eastern Affairs                           1,410               403             29%               206
South and Central Asian Affairs                1,169               240             21%                 81
Western Hemisphere Affairs                     1,896             1,384             73%             1,151
Other                                            104                13             13%                 11
Total                                          9,762             4,121           42%19             2,690


Language Designated Positions by Function

                 Function/Cone                             Number of           Number of Department
                                                          Department             Positions Overseas
                                                       Positions Overseas       That Are LDPs at the
                                                        That Are LDPs              S-3/R-3 Level
Consular                                                            1,284                          834
Executive                                                             179                          170
Information Management                                                 70                            6
Management                                                            391                          198
Medical                                                                 0                            0
Multifunctional                                                        53                           38
Political/Economic                                                  1,030                          851
Public Affairs                                                        500                          429
Security                                                              366                          106
International Narcotics and Law Enforcement                            45                           45
Office Management                                                     203                           13
Total                                                               4,121                        2,690


18
   The OIG team developed these charts based on DGHR-provided data on LDPs and the number of overseas
Department positions.
19
   Forty-two percent (4,121) of the Department’s 9,762 overseas positions are language designated.
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Appendix II: Language Designated Positions by Percent of
Department Positions in Country That Are Language
Designated20
     Country           Number of        Number of         Percent of       Number of     Percent of
                       Department       Department       Department        Department Department
                       Positions in     Positions in     Positions in      Positions in Positions in
                        Country          Country           Country          Country       Country
                                         That Are         That Are          That Are     That Are
                                          LDPs              LDPs           LDPs at the LDPs at the
                                                                            3/3 Level    3/3 Level
Argentina                          57               53             93%                41        72%
Colombia                          114              103             90%                79        69%
Mexico                            402              356             89%              326         81%
Venezuela                          77               68             88%                57        74%
Guatemala                          48               42             88%                32        67%
Dominican Rep                      65               56             86%                48        74%
Holy See                            7                6             86%                 5        71%
Central African
Rep                                 7                6             86%                  5             71%
Brazil                            242              206             85%                177             73%
Honduras                           48               40             83%                 30             63%
El Salvador                        52               43             83%                 32             62%
Chile                              40               33             83%                 25             63%
Costa Rica                         39               32             82%                 25             64%
Spain                              49               40             82%                 28             57%
Ecuador                            65               53             82%                 44             68%
Cape Verde                         10                8             80%                  7             70%
Peru                               70               55             79%                 45             64%
Mali                               23               18             78%                 11             48%
Haiti                              64               50             78%                 40             63%
Panama                             41               32             78%                 22             54%
Bolivia                            41               32             78%                 22             54%
Gabon                              17               13             76%                  8             47%
Nicaragua                          41               31             76%                 22             54%
Cuba                               36               27             75%                 27             75%
Kazakhstan                         51               38             75%                 21             41%
Uruguay                            30               22             73%                 14             47%
Belarus                            15               11             73%                  6             40%
Guinea                             22               16             73%                 11             50%

20
  The OIG team developed this chart using DGHR-provided data on LDPs and the number of overseas Department
positions.
                                         15
                             SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

    Country     Number of      Number of       Percent of    Number of     Percent of
                Department     Department     Department     Department Department
                Positions in   Positions in   Positions in   Positions in Positions in
                 Country        Country         Country       Country       Country
                                That Are       That Are       That Are     That Are
                                 LDPs            LDPs        LDPs at the LDPs at the
                                                              3/3 Level    3/3 Level
Congo                     51            37            73%               28        55%
Portugal                  28            20            71%               14        50%
China                    458           327            71%             136         30%
Mozambique                24            17            71%               12        50%
Paraguay                  27            19            70%               14        52%
Italy                    101            70            69%               48        48%
Slovakia                  19            13            68%                8        42%
Algeria                   31            21            68%               15        48%
Cameroon                  31            21            68%               11        35%
Ukraine                   71            48            68%               21        30%
Vietnam                   91            61            67%               33        36%
France                   123            82            67%               63        51%
Uzbekistan                36            24            67%               11        31%
Madagascar                21            14            67%                9        43%
Benin                     18            12            67%                8        44%
Cote d’Ivoire             32            21            66%               16        50%
Laos                      23            15            65%               10        43%
Turkmenistan              23            15            65%                6        26%
Togo                      17            11            65%                7        41%
Tunisia                   39            25            64%               21        54%
Turkey                   109            69            63%               34        31%
Djibouti                  19            12            63%                7        37%
Latvia                    19            12            63%                6        32%
Kyrgyzstan                32            20            63%               10        31%
Moldova                   24            15            63%               15        63%
Mauritania                16            10            63%                5        31%
Poland                    70            43            61%               20        29%
Chad                      18            11            61%                8        44%
Burkina Faso              18            11            61%                7        39%
Morocco                   60            36            60%               29        48%
Azerbaijan                35            21            60%               12        34%
Albania                   25            15            60%                9        36%
Russia                   193           114            59%               63        33%
Estonia                   17            10            59%                7        41%
Angola                    24            14            58%               12        50%
Tajikistan                26            15            58%                7        27%

                                 16
                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

    Country         Number of      Number of       Percent of    Number of     Percent of
                    Department     Department     Department     Department Department
                    Positions in   Positions in   Positions in   Positions in Positions in
                     Country        Country         Country       Country       Country
                                    That Are       That Are       That Are     That Are
                                     LDPs            LDPs        LDPs at the LDPs at the
                                                                  3/3 Level    3/3 Level
Georgia                       40            23            58%                9        23%
Serbia                        42            24            57%               16        38%
Niger                         21            12            57%                6        29%
Lebanon                       43            24            56%               16        37%
Burundi                       18            10            56%                6        33%
Japan                        121            67            55%               41        34%
Yemen                         47            26            55%                7        15%
Lithuania                     20            11            55%                5        25%
Czech Republic                33            18            55%               11        33%
Senegal                       53            28            53%               20        38%
Bosnia and
Herzegovina                   44            22            50%             17          39%
Bulgaria                      34            17            50%              9          26%
Armenia                       30            15            50%             10          33%
Macedonia                     28            14            50%              5          18%
Luxembourg                    14             7            50%              6          43%
Suriname                      14             7            50%              6          43%
Equatorial Guinea             10             5            50%              5          50%
Burma                         31            15            48%              2           6%
Croatia                       27            13            48%             10          37%
Romania                       44            21            48%             20          45%
Montenegro                    13             6            46%              5          38%
Saudi Arabia                 115            50            43%             14          12%
Indonesia                    124            53            43%             35          28%
Jordan                        72            30            42%             10          14%
Hungary                       41            17            41%              9          22%
Cambodia                      36            14            39%             10          28%
Thailand                     114            44            39%             16          14%
Mauritius                     13             5            38%              5          38%
Kuwait                        43            16            37%              7          16%
Syria                         49            18            37%              8          16%
Germany                      229            83            36%             67          29%
Israel                       133            48            36%             24          18%
Nepal                         39            14            36%              6          15%
South Korea                   95            34            36%             15          16%
Sweden                        26             9            35%              9          35%

                                     17
                         SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED

    Country   Number of      Number of       Percent of    Number of     Percent of
              Department     Department     Department     Department Department
              Positions in   Positions in   Positions in   Positions in Positions in
               Country        Country         Country       Country       Country
                              That Are       That Are       That Are     That Are
                               LDPs            LDPs        LDPs at the LDPs at the
                                                            3/3 Level    3/3 Level
Norway                  26             9            35%                9        35%
Libya                   30            10            33%                7        23%
Netherlands
Antilles                 3             1            33%              1          33%
Mongolia                22             7            32%              6          27%
Taiwan                 126            38            30%             23          18%
Oman                    30             9            30%              2           7%
Switzerland             88            26            30%             16          18%
Greece                  65            19            29%             10          15%
Bahrain                 33             9            27%              4          12%
United Arab
Emirates                89     24      27%                          14          16%
Bangladesh              45     12      27%                           2           4%
Qatar                   30      8      27%                           3          10%
Slovenia                15      4      27%                           2          13%
Tanzania                31      8      26%                           6          19%
Kosovo                  31      8      26%                           5          16%
Denmark                 24      6      25%                           6          25%
Belgium                134     30      22%                          28          21%
Finland                 27      6      22%                           5          19%
Timor-Leste              9      2      22%                           2          22%
Egypt                  144     30      21%                          15          10%
Malaysia                48     10      21%                           7          15%
Hong Kong               58     12      21%                           5           9%
Netherlands             41      8      20%                           8          20%
Rwanda                  21      4      19%                           2          10%
India                  268     46      17%                           8           3%
Canada                 111     19      17%                          18          16%
Austria                100     17      17%                          10          10%
Ethiopia                56      9      16%                           3           5%
Belize                  19      3      16%                           3          16%
Cyprus                  28      4      14%                           3          11%
USA                    104     13      13%                          11          11%
Brunei                   8      1      13%                           1          13%
Sri Lanka               33      4      12%                           0           0%
Afghanistan            364     32       9%                           6           2%
Iceland                 12      1       8%                           1           8%
                               18
                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

    Country        Number of      Number of       Percent of    Number of     Percent of
                   Department     Department     Department     Department Department
                   Positions in   Positions in   Positions in   Positions in Positions in
                    Country        Country         Country       Country       Country
                                   That Are       That Are       That Are     That Are
                                    LDPs            LDPs        LDPs at the LDPs at the
                                                                 3/3 Level    3/3 Level
Pakistan                    252            20             8%                4         2%
Sudan                        49             3             6%                0         0%
Singapore                    34             2             6%                1         3%
Fiji                         18             1             6%                0         0%
Kenya                        76             4             5%                0         0%
Iraq                        425            19             4%               10         2%
Ghana                        46             2             4%                1         2%
Philippines                 118             5             4%                0         0%
Barbados                     36             1             3%                1         3%
Nigeria                     100             2             2%                0         0%
United Kingdom              108             2             2%                2         2%
South Africa                127             0             0%                0         0%
Australia                    68             0             0%                0         0%
Jamaica                      43             0             0%                0         0%
Uganda                       34             0             0%                0         0%
Liberia                      30             0             0%                0         0%
Zimbabwe                     29             0             0%                0         0%
Trinidad &
Tobago                       24             0             0%              0           0%
Ireland                      24             0             0%              0           0%
The Bahamas                  24             0             0%              0           0%
Zambia                       24             0             0%              0           0%
Guyana                       22             0             0%              0           0%
New Zealand                  22             0             0%              0           0%
Botswana                     21             0             0%              0           0%
Malawi                       17             0             0%              0           0%
Sierra Leone                 17             0             0%              0           0%
Malta                        15             0             0%              0           0%
Namibia                      15             0             0%              0           0%
Swaziland                    14             0             0%              0           0%
Papua New
Guinea                       13      0       0%                           0           0%
The Gambia                   11      0       0%                           0           0%
Lesotho                      10      0       0%                           0           0%
Eritrea                       9      0       0%                           0           0%
Marshall Islands              4      0       0%                           0           0%
Micronesia, Fed.              4      0       0%                           0           0%
                                    19
                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED

    Country   Number of      Number of       Percent of    Number of       Percent of
              Department     Department     Department     Department     Department
              Positions in   Positions in   Positions in   Positions in   Positions in
               Country        Country         Country       Country         Country
                              That Are       That Are       That Are       That Are
                               LDPs            LDPs        LDPs at the    LDPs at the
                                                            3/3 Level      3/3 Level
States of
Bermuda                  3             0             0%               0            0%
Palau                    2             0             0%               0            0%
Grenada                  1             0             0%               0            0%
Samoa                    1             0             0%               0            0%




                               20
                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Appendix III: Language Designated Positions by Mission
Size21
     Country           Number of         Number of         Percent of      Number of     Percent of
                       Department        Department       Department       Department Department
                       Positions in      Positions in     Positions in     Positions in Positions in
                        Country           Country           Country         Country       Country
                                          That Are         That Are         That Are     That Are
                                           LDPs              LDPs          LDPs at the LDPs at the
                                                                            3/3 Level    3/3 Level
 China                            458              327             71%              136         30%
 Iraq                             425               19              4%               10          2%
 Mexico                           402              356             89%              326         81%
 Afghanistan                      364               32              9%                 6         2%
 India                            268               46             17%                 8         3%
 Pakistan                         252               20              8%                 4         2%
 Brazil                           242              206             85%              177         73%
 Germany                          229               83             36%               67         29%
 Russia                           193              114             59%               63         33%
 Egypt                            144               30             21%               15         10%
 Belgium                          134               30             22%               28         21%
 Israel                           133               48             36%               24         18%
 South Africa                     127                0              0%                 0         0%
 Taiwan                           126               38             30%               23         18%
 Indonesia                        124               53             43%               35         28%
 France                           123               82             67%               63         51%
 Japan                            121               67             55%               41         34%
 Philippines                      118                5              4%                 0         0%
 Saudi Arabia                     115               50             43%               14         12%
 Colombia                         114              103             90%               79         69%
 Thailand                         114               44             39%               16         14%
 Canada                           111               19             17%               18         16%
 Turkey                           109               69             63%               34         31%
 United
 Kingdom                          108                2              2%                  2              2%
 USA                              104               13             13%                 11             11%
 Italy                            101               70             69%                 48             48%
 Austria                          100               17             17%                 10             10%
 Nigeria                          100                2              2%                  0              0%
 South Korea                       95               34             36%                 15             16%


21
  The OIG team developed this chart using DGHR-provided data on LDPs and the number of overseas Department
positions.
                                         21
                             SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

   Country      Number of      Number of       Percent of    Number of    Percent of
                Department     Department     Department     Department Department
                Positions in   Positions in   Positions in   Positions in Positions in
                 Country        Country         Country       Country      Country
                                That Are       That Are       That Are     That Are
                                 LDPs            LDPs        LDPs at the LDPs at the
                                                              3/3 Level    3/3 Level
Vietnam                   91            61            67%              33         36%
United Arab
Emirates                  89            24            27%             14         16%
Switzerland               88            26            30%             16         18%
Venezuela                 77            68            88%             57         74%
Kenya                     76             4             5%              0          0%
Jordan                    72            30            42%             10         14%
Ukraine                   71            48            68%             21         30%
Peru                      70            55            79%             45         64%
Poland                    70            43            61%             20         29%
Australia                 68             0             0%              0          0%
Dominican Rep             65            56            86%             48         74%
Ecuador                   65            53            82%             44         68%
Greece                    65            19            29%             10         15%
Haiti                     64            50            78%             40         63%
Morocco                   60            36            60%             29         48%
Hong Kong                 58            12            21%              5          9%
Argentina                 57            53            93%             41         72%
Ethiopia                  56             9            16%              3          5%
Senegal                   53            28            53%             20         38%
El Salvador               52            43            83%             32         62%
Kazakhstan                51            38            75%             21         41%
Congo                     51            37            73%             28         55%
Spain                     49            40            82%             28         57%
Syria                     49            18            37%              8         16%
Sudan                     49             3             6%              0          0%
Guatemala                 48            42            88%             32         67%
Honduras                  48            40            83%             30         63%
Malaysia                  48            10            21%              7         15%
Yemen                     47            26            55%              7         15%
Ghana                     46             2             4%              1          2%
Bangladesh                45            12            27%              2          4%
Bosnia and
Herzegovina               44      22     50%                          17         39%
Romania                   44      21     48%                          20         45%
Lebanon                   43      24     56%                          16         37%
Kuwait                    43      16     37%                           7         16%
                                 22
                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED

   Country       Number of      Number of       Percent of    Number of     Percent of
                 Department     Department     Department     Department Department
                 Positions in   Positions in   Positions in   Positions in Positions in
                  Country        Country         Country       Country       Country
                                 That Are       That Are       That Are     That Are
                                  LDPs            LDPs        LDPs at the LDPs at the
                                                               3/3 Level    3/3 Level
Jamaica                    43             0             0%                0         0%
Serbia                     42            24            57%              16         38%
Panama                     41            32            78%              22         54%
Bolivia                    41            32            78%              22         54%
Nicaragua                  41            31            76%              22         54%
Hungary                    41            17            41%                9        22%
Netherlands                41             8            20%                8        20%
Chile                      40            33            83%              25         63%
Georgia                    40            23            58%                9        23%
Costa Rica                 39            32            82%              25         64%
Tunisia                    39            25            64%              21         54%
Nepal                      39            14            36%                6        15%
Cuba                       36            27            75%              27         75%
Uzbekistan                 36            24            67%              11         31%
Cambodia                   36            14            39%              10         28%
Barbados                   36             1             3%                1         3%
Azerbaijan                 35            21            60%              12         34%
Bulgaria                   34            17            50%                9        26%
Singapore                  34             2             6%                1         3%
Uganda                     34             0             0%                0         0%
Czech Republic             33            18            55%              11         33%
Bahrain                    33             9            27%                4        12%
Sri Lanka                  33             4            12%                0         0%
Cote d’Ivoire              32            21            66%              16         50%
Kyrgyzstan                 32            20            63%              10         31%
Algeria                    31            21            68%              15         48%
Cameroon                   31            21            68%              11         35%
Burma                      31            15            48%                2         6%
Tanzania                   31             8            26%                6        19%
Kosovo                     31             8            26%                5        16%
Uruguay                    30            22            73%              14         47%
Armenia                    30            15            50%              10         33%
Libya                      30            10            33%                7        23%
Oman                       30             9            30%                2         7%
Qatar                      30             8            27%                3        10%
Liberia                    30             0             0%                0         0%

                                  23
                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED

   Country     Number of      Number of       Percent of    Number of     Percent of
               Department     Department     Department     Department Department
               Positions in   Positions in   Positions in   Positions in Positions in
                Country        Country         Country       Country       Country
                               That Are       That Are       That Are     That Are
                                LDPs            LDPs        LDPs at the LDPs at the
                                                             3/3 Level    3/3 Level
Zimbabwe                 29             0             0%                0         0%
Portugal                 28            20            71%              14         50%
Macedonia                28            14            50%                5        18%
Cyprus                   28             4            14%                3        11%
Paraguay                 27            19            70%              14         52%
Croatia                  27            13            48%              10         37%
Finland                  27             6            22%                5        19%
Tajikistan               26            15            58%                7        27%
Sweden                   26             9            35%                9        35%
Norway                   26             9            35%                9        35%
Albania                  25            15            60%                9        36%
Mozambique               24            17            71%              12         50%
Moldova                  24            15            63%              15         63%
Angola                   24            14            58%              12         50%
Denmark                  24             6            25%                6        25%
Trinidad &
Tobago                   24             0             0%              0          0%
Ireland                  24             0             0%              0          0%
The Bahamas              24             0             0%              0          0%
Zambia                   24             0             0%              0          0%
Mali                     23            18            78%             11         48%
Laos                     23            15            65%             10         43%
Turkmenistan             23            15            65%              6         26%
Guinea                   22            16            73%             11         50%
Mongolia                 22             7            32%              6         27%
Guyana                   22             0             0%              0          0%
New Zealand              22             0             0%              0          0%
Madagascar               21            14            67%              9         43%
Niger                    21            12            57%              6         29%
Rwanda                   21             4            19%              2         10%
Botswana                 21             0             0%              0          0%
Lithuania                20            11            55%              5         25%
Slovakia                 19            13            68%              8         42%
Djibouti                 19            12            63%              7         37%
Latvia                   19            12            63%              6         32%
Belize                   19             3            16%              3         16%

                                24
                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

   Country         Number of      Number of       Percent of    Number of     Percent of
                   Department     Department     Department     Department Department
                   Positions in   Positions in   Positions in   Positions in Positions in
                    Country        Country         Country       Country       Country
                                   That Are       That Are       That Are     That Are
                                    LDPs            LDPs        LDPs at the LDPs at the
                                                                 3/3 Level    3/3 Level
Benin                        18            12            67%                8        44%
Chad                         18            11            61%                8        44%
Burkina Faso                 18            11            61%                7        39%
Burundi                      18            10            56%                6        33%
Fiji                         18             1             6%                0         0%
Gabon                        17            13            76%                8        47%
Togo                         17            11            65%                7        41%
Estonia                      17            10            59%                7        41%
Malawi                       17             0             0%                0         0%
Sierra Leone                 17             0             0%                0         0%
Mauritania                   16            10            63%                5        31%
Belarus                      15            11            73%                6        40%
Slovenia                     15             4            27%                2        13%
Malta                        15             0             0%                0         0%
Namibia                      15             0             0%                0         0%
Luxembourg                   14             7            50%                6        43%
Suriname                     14             7            50%                6        43%
Swaziland                    14             0             0%                0         0%
Montenegro                   13             6            46%                5        38%
Mauritius                    13             5            38%                5        38%
Papua New
Guinea                       13             0             0%              0          0%
Iceland                      12             1             8%              1          8%
The Gambia                   11             0             0%              0          0%
Cape Verde                   10             8            80%              7         70%
Equatorial
Guinea                       10             5            50%              5         50%
Lesotho                      10             0             0%              0          0%
Timor-Leste                   9             2            22%              2         22%
Eritrea                       9             0             0%              0          0%
Brunei                        8             1            13%              1         13%
Holy See                      7             6            86%              5         71%
Central African
Rep                           7             6            86%              5         71%
Marshall Islands              4             0             0%              0          0%
Micronesia,
Fed. States of                4             0             0%              0           0%
                                    25
                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED

   Country    Number of      Number of       Percent of    Number of       Percent of
              Department     Department     Department     Department     Department
              Positions in   Positions in   Positions in   Positions in   Positions in
               Country        Country         Country       Country         Country
                              That Are       That Are       That Are       That Are
                               LDPs            LDPs        LDPs at the    LDPs at the
                                                            3/3 Level      3/3 Level
Netherlands
Antilles                 3             1            33%               1          33%
Bermuda                  3             0             0%               0           0%
Palau                    2             0             0%               0           0%
Grenada                  1             0             0%               0           0%
Samoa                    1             0             0%               0           0%




                               26
                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Appendix IV: Language Designated Positions by Language
and Number of Students in Language Training
                                                                 Number of Students Starting
              Number of LDPs by Language22
                                                               Training in 2012 by Language23
                     Language              Count                    Language         Students
              Spanish                        1,155            Spanish                      417
              French                           572            French                       233
              Chinese-Mandarin                 381            Mandarin                     162
              Russian                          361            Portuguese                   156
              Arabic-modern                    319            Arabic                       145
              Portuguese                       268            Russian                      120
              German                           118            German                        57
              Italian                           77            Vietnamese                    44
              Serbo-Croatian                    67            Serbo-Croatian                32
              Turkish                           67            Turkish                       29
              Japanese                          66            Italian                       28
              Vietnamese-STD                    61            Indonesian                    27
              Indonesian                        55            Albanian                      21
              Ukrainian                         47            Japanese                      20
              Thai                              44            Dari                          19
              Polish                            43            Polish                        18
              Korean                            36            Romanian                      17
              Romanian                          35            Thai                          17
              Hindi                             30            Urdu                          17
              Persian-Afghan                    29            Haitian Creole                12
              Hebrew                            28            Hindi                         12
              Albanian                          26            Bulgarian                     11
              Persian-Iranian                   23            Czech                         11
              Dutch                             22            Hebrew                        11
              Georgian                          22            Korean                        11
              Greek                             21            Armenian                      10
              Azerbaijani                       20            Burmese                       10
              Czech                             19            Farsi                          8
              Urdu                              19            Greek                          8
              Kirghiz                           18            Khmer                          8
              Bulgarian                         17            Pashto                         8
              Hungarian                         17            Swahili                        8
              Kazakh                            17            Azerbaijani                    7
              Pashto                            16            Dutch                          7
              Burmese                           15            Lao                            7
              Lao                               15            Norwegian                      7
              Armenian-East                     15            Swedish                        7

22
     The OIG team developed this chart using a list of LDPs provided by DGHR.
23
     The OIG team developed this chart using data provided by FSI.
                                             27
                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

                                                               Number of Students Starting
            Number of LDPs by Language22
                                                              Training in 2012 by Language23
           Persian-Tajiki                      15            Bengali                       6
           Cambodian-Khmer                     14            Macedonian                    6
           Turkmen                             14            Nepali                        6
           Bengali                             13            Tagalog                       6
           Nepali/Nepalese                     13            Gerogian                      5
           Slovak                              13            Lithuanian                    5
           Uzbek                               13            Tamali                        5
           Latvian                             12            Ukrainian                     5
           Lithuanian                          11            Hungarian                     4
           Macedonian                          11            Malay                         4
           Chinese-Canton                      10            Latvian                       3
           Malay                               10            Slovenian                     3
           Swahili/Kiswahili                   10            Tajiki                        3
           Estonian                             9            Telugu                        3
           Norwegian                            9            Amharic                       2
           Swedish                              9            Danish                        2
           Tamil                                8            Hausa                         2
           Gujarati                             7            Kurdish                       2
           Mongolian                            7            Mongolian                     2
           Amharic                              6            Uxbek                         2
           Danish                               6            Cantonese                     1
           Finnish                              6            Estonian                      1
           Filipino/Tagalog                     5            Finnish                       1
           Slovenian                            4            Gujarati                      1
           Telugu                               4            Kinyarwanda                   1
           Arabic Egyptian                      2            Kyrgy                         1
           Hausa                                2            Singhalese                    1
           Panjabi/Punjabi                      2            Slovak                        1
           Singalese                            2            Somali                        1
           Haitian Creole                       1            Tibetian                      1
           Icelandic                            1            Turkmen                       1
           Kinyarwanda/Rwanda                   1            Icelandic                     0
           Kurdish                              1            Kazakh                        0
           Somali                               1            Punjabi                       0
           Tibetian                             1            Setswana                      0
           Total 24                         4,414            Total                     1,829




24
  The total number of LDPs by languages (4,414) differs from the total number of LDPs overseas (4,121) because
some LDPs are dual designated—officers can meet requirements with either of two languages.
                                           28
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Appendix V: OIG Recommendations Related to Language
Designated Positions
Recommendations to Reduce Language Designated Positions

Inspection of Embassy Lisbon, Portugal, and Constituent Posts (ISP-I-12-53A, September
2012)
OIG recommended that the mission eliminate five of the embassy’s 22 LDPs. Three incumbents
in two successive assignment cycles were given language waivers for serving without language
ability. Those officers work effectively without language skills as does the financial management
officer, who reported that Portuguese was not essential for his position and whose predecessor
arrived with a waiver and served 3 years without language ability.

Inspection of Embassy Bucharest, Romania (ISP-I-12-45A, August 2012)
OIG recommended the mission conduct a review of its 21 LDPs and reduce that number.
Romanian is not essential to the work for a substantial number of Romanian LDPs. Officers
reported only a marginal need for their language skills. The mission had not reviewed
proficiency requirements to determine whether they were essential.

Inspection of Embassy Prague, the Czech Republic (ISP-I-12-42A, August 2012)
OIG recommended the mission remove Czech language designations for three positions. The
Czech education system provides nearly universal English-language instruction at most public
schools, and English is far more widely understood than in the years prior to the fall of
communism. The need for Czech language to conduct diplomatic operations has diminished.

Inspection of Embassy Nairobi, Kenya (ISP-I-12-38A, August 2012)
OIG recommended the mission drop language designations for the political military officer and
regional information resource officer for whom Kiswahili and French are not essential. The
political military officer’s principal responsibilities entailed maintaining relationships with
English-speaking Kenyan authorities in Nairobi. Language training was waived for the officer’s
predecessor. The other officer covers nine countries from Nairobi, and French is not essential.

Inspection of Embassy Bandar Seri Begawan, Brunei (ISP-I-12-35A, June 2012)
OIG recommended the mission remove the public affairs officer’s Malay language designation.
The officer received 9 months of Malay language training but rarely uses Malay in work-related
interactions and most Bruneians speak excellent English.

Inspection of Embassy Singapore, Singapore (ISP-I-12-36A, June 2012)
OIG recommended the mission remove the assistant public affairs officer’s Malay language
designation. The officer spent several months in language training first in Washington and then
in Malaysia but rarely used Malay in day-to-day interactions with staff, local media, or
educational contacts. Most Singaporeans speak English, which is the medium of instruction in
most schools.

Compliance Followup Review of Embassy Bangkok and Consulate General Chiang Mai,
Thailand (ISP-C-12-33A, June 2012)
OIG recommended the mission resubmit its list of LDPs. During the compliance followup
                                       29
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

review, the embassy, with OIG’s concurrence, identified five positions requiring only a
familiarization course. OIG also found asymmetric language designations would better suit the
mission and recommended that HR determine whether some LDPs could be asymmetric levels.

Inspection of the U.S. Mission to the Organization for Economic Cooperation and
Development, Paris, France (ISP-I-12-27, May 2012)
OIG recommended the mission remove language requirements for three entry-level positions in
the economic section whose duties and responsibilities were identical to other positions in the
section, which were not designated. The incumbents, their supervisor, and the deputy chief of
mission agreed language skills were not essential. The mission provides interpretive services for
all its meetings, and virtually all personnel from other Organization for Economic Cooperation
and Development missions and the Secretariat speak English.

Compliance Followup Review of Consulate General Hong Kong, China (ISP-C-12-29A, May
2012)
OIG recommended the mission remove consular officer Mandarin language requirements and
instead designate the positions as language preferred positions. Six consular officers received
Mandarin language training before arriving at the mission. Consular officers in Hong Kong said
they rarely use their Mandarin language skills, which deteriorate while they are in country.
Although the Department has an interest in creating a cadre of Mandarin speakers, the current
practice of training consular officers in Mandarin, giving them an assignment where Mandarin is
not required for conducting day-to-day business and is rarely used, then assigning them to a non-
Mandarin speaking position undermines this goal.

Inspection of Tri-Mission Vienna Joint Management Office (ISP-I-12-19A, March 2012)
OIG recommended the mission remove language designations for four regional security officer
positions. None of the offices considered German essential to fulfilling their responsibilities, as
most of their work is conducted in English and LE staff is competent in English. Two regional
security officers were assigned without reaching designated level of language proficiency and
without a language waiver. The mission did not conduct a comprehensive survey of LDPs to
determine whether language skills were essential.

Inspection of Embassy Helsinki, Finland (ISP-I-11-67A, September 2011)
OIG recommended the mission remove language designations of four of its six LDPs. Expertise
in Finnish is not essential to the work of most of the officers who have learned it. Three officers
do not use Finnish or use it sparingly, as English is widely spoken in Finland at all levels of
society.

Inspection of Embassy New Delhi, India, and Constituent Posts (ISP-I-11-39A, June 2011)
OIG recommended the mission cut at least 50 percent of the consular officer language
designations in country. Thirty-seven consular officer positions in India are LDPs. Officers
typically get 6 to 9 months of language training prior to their assignment. According to visa
officers and consular managers, most visa interviews are conducted in English because
applicants have sufficient proficiency in English. LE staff can and do translate in multiple local
languages if needed for complex interviews.

Inspection of Embassy Stockholm, Sweden (ISP-1-11-30A, March 2011)
OIG recommended the mission eliminate one of the three consular officer language designations.
                                        30
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

The officer’s interactions with Swedish authorities are conducted in English, and his clientele are
primarily English-speaking American citizens, permanent resident aliens, or Swedes who have
American citizen children. English has been compulsory in Swedish schools for more than 50
years, and almost all visa applicants speak good or even excellent English. LE staff assists when
interpretation is required, which occurred in only 3 percent of the nonimmigrant visa cases in
2009.

Inspection of Embassy Athens, Greece (ISP-I-11-15A, February 2011)
OIG recommended that the mission reduce the number of language designated positions from 36
to 20 and reduce the post’s 3/3 LDPs from 12 to 9. Most officers reported they seldom needed to
speak Greek for more than pleasantries in their professional work, and their language skills
steadily deteriorate after arrival at post. Only half a dozen Department officers have the ability
and need to deliver substantive public addresses or conduct complex official discussions in
Greek.

Recommendations to Increase Language Designated Positions or Reduce Waivers

Inspection of Embassy Beirut, Lebanon (ISP-I-12-10A, February 2012)
OIG recommended the mission require Arabic proficiency in the newly upgraded consular unit
chief position. The unit chief must regularly interact with Arabic-speaking host country officials
and professional contacts. Language skills would greatly enhance the chief’s ability to operate in
Beirut.

Inspection of Embassy Seoul, Republic of Korea (ISP-I-11-55A, August 2011)
OIG recommended the Department design a program to meet long-term Korean language needs.
Currently, fewer than 100 Department employees have achieved general professional proficiency
in Korean, and of those currently assigned to LDPs in South Korea, nearly half have not
achieved the required level of proficiency. Although the mission stated there was no need for
LDPs beyond the 3/3 level, OIG disagreed and concluded there was a strategic need for officers
with advanced proficiency levels. Relatively few officers bid on South Korean positions
designated at the 3/3 level because of the difficulty of the language, the perception that learning a
one-country language is of limited usefulness, and fact that there are fewer professional
opportunities in Korean at the senior levels compared to Arabic and Chinese.

Inspection of the Office of the U.S. Special Representative for Afghanistan and Pakistan
(ISP-I-11-48, June 2011)
OIG recommended the office recruit detailees or excepted Civil Service employees with local
language proficiency to serve full time in Embassies Kabul and Islamabad as public
spokespersons, to provide career public diplomacy officers training needed to engage Afghan
and Pakistani local language media at any time and any place, and to consider developing a
speakers bureau of experts who are proficient in Urdu, Pashto, or Dari, who can be detailed from
their regular jobs to assist with outreach and engagement strategies in Afghanistan and Pakistan.
Fewer than 120 active career and career-conditional employees can read and speak Urdu, Pashto,
or Dari at a competency level of 3/3 or greater. There is a shortage of language-qualified press
officers in Afghanistan and Pakistan. In Afghanistan, which has one of the lowest levels of
literacy in the world and where people get their information primarily from radio (in rural areas)
or television (in urban areas), U.S. officials should be able to engage with the broadcast media in

                                        31
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Dari and Pashto. An analogous situation exists in Pakistan. In an effort to fill the gap, a detailee
from DOD sometimes calls media contacts in Pakistan to engage with them in Urdu.

Inspection of the Consulate General Jerusalem (ISP-I-11-34A, March 2011)
OIG recommended the Department cease granting language waivers for LDPs in the political
section, acting to redesignate all positions in that section as mid-level. The 6 months of language
training entry-level officers obtain before filling first-tour or mid-level positions is insufficient to
conduct business in the West Bank in Arabic. The practice of assigning entry-level officers with
language waivers to mid-level political positions forces section leaders to divert too much time
from reporting and operations to mentoring and training.

Inspection of Embassy Amman, Jordan (ISP-I-10-35A, March 2010)
OIG recommended the mission convert a 1-year entry-level officer LDP into a 3-year mid-level
officer LDP. The complexity of the portfolio and importance of the issues in U.S.-Jordanian
relations warrant the assignment of an experienced officer. OIG also noted that several officers
who are not language qualified occupy LDPs and that collective deficits in the officers’ language
proficiencies over time could constrain the embassy’s ability to develop relationships more
broadly among Jordanian civil society, political parties, and business people, particularly outside
Amman.

Inspection of Embassy Baghdad, Iraq (ISP-I-09-30A, July 2009)
OIG recommended the mission reassess the need for spoken and written Arabic language skills
for officers in the public affairs section. Institutional knowledge in the mission’s public affairs
section resides with contractors; noncareer, temporary appointment Civil Service employees
hired under U.S. Code Title 5, Section 3161 (3161s); DOD-funded bilingual bicultural advisors;
and members of the military serving multiple tours in Iraq. The bilingual cultural advisors, all of
whom speak Arabic, will likely leave Iraq when U.S. troops draw down, and the Department
may lose its ability to hire 3161s. The drawdown of U.S. troops and the ability to hire 3161s will
affect the section’s staffing and ability to conduct programs. Under the current staffing plan, only
4 of the 12 Foreign Service positions are language designated.




                                         32
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Appendix VI: Language Designated Positions Guidance
Director General’s April 30, 2010, Memorandum

        A memorandum from Nancy Powell, Director General of the Foreign Service, in late
April 2010 launched measures to reform the process for designating positions for language skills.
The Director General announced that the LDP process would be conducted once every 3 years,
instead of annually. She requested that regional bureaus review all positions for each of their
posts and develop ―an authoritative list of LDP requirements in each region.‖ Regional bureaus
were to review positions to be filled in the 2011 assignment cycle and send the results to her by
May 28, 2010, although results for Afghanistan, Iraq, and Pakistan were to be sent by May 14.
To complete this exercise, ―authoritative lists for all positions‖ were to be sent to her by January
17, 2011. Regional bureaus were to certify that, ―in accordance with 13 FAM 221, the language
requirement for each LDP is essential to advance U.S. foreign policy objectives.‖ Changes in
LDP requirements for a position were to be based on considerations such as the specific tasks
requiring language skills and the percentage of time spent on each; changes in responsibilities or
the work environment that justify changing current language level requirements; and any specific
OIG recommendations for changes in position language designations. The memorandum
outlined nine additional considerations to apply in the process.

       The goals of the exercise were to standardize the process to raise ―this key resource
exercise to the highest levels of the Department.‖ The Director General announced that DGHR
had decided to strengthen the process because ―the LDP process is the foundation upon which all
other Department language policies are built.‖

Director General’s December 16, 2010, Memorandum

        After reminding the assistant secretaries of the April 30, 2010, memorandum, the
Director General announced the next phase of the review process by requesting that they send
the LDP requirements for all positions not previously reviewed by January 28, 2011. She
included a list of LDP criteria to guide the assistant secretaries’ thinking, help standardize the
posts’ approach to LDP positions worldwide, and address congressional criticism that the
Department did not have a ―transparent, comprehensive process for identifying foreign language
requirements to determine positions that should be designated.‖ The Director General advised,
―You need not send me a written justification for each LDP, but you should be able to provide a
justification if required during our review.‖ She asked for the assistant secretaries’ help in
identifying any special positions that might have greater needs than the LDP proficiency,
identifying this as the ―preferred planning level.‖ She also solicited ideas for improvements in
language policies for recruitment, language probation, and LIP to be submitted through the
Language Issues Working Group.

        The Director General outlined the following general criteria for LDPs:

       To execute successfully the requirements of the position, the employee must have
        proficiency in the host nation language. ―Operational need‖ is the decisive criterion for
        LDPs, where language proficiency is essential, rather than merely helpful or convenient
        to enhancing U.S. effectiveness abroad;
                                       33
                           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED

   Official designation of national language(s);
   Importance that host nation interlocutors attach to speaking their language;
   General level of English-language penetration;
   Professionalism of interpretation and translation services available;
   Importance of being able to speak host nation language(s) in public or at representational
    events; and,
   Availability of media in host nation language(s).




                                   34
                       SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Appendix VII: Bureau of Human Resources Strategic Plan
2010 Strategic Plan for Foreign Language Capabilities

        DGHR, with the participation of the regional bureaus, the FSI, and the Bureaus of
Consular Affairs, Diplomatic Security, Resource Management, and Management Policy,
Rightsizing, and Innovation, prepared a Strategic Plan finally approved by DGHR’s principal
deputy assistant secretary in March 2011. After outlining the specific needs of officers in
overseas position for language capabilities, the strategy set forth a general goal of identifying and
meeting the Department’s current and projected needs for language proficiencies. The strategy
specified that the Department should work to increase the rate at which LDPs were filled from
the then prevailing 60 percent fill rate to 90 percent by 2016–2017. It outlined some objectives to
ensure that the Department achieved this goal. The plan then listed ―six key steps‖: (1) expand
the training complement; (2) improve the Department’s language designation process; (3)
develop a modeling tool; (4) recruit personnel with foreign language proficiency through the
Recruitment Language Program; (5) make incentives more effective and maximize the effect of
language and assignment policies; and (6) strengthen and develop new approaches for language
training.

        The plan recognized that the language designation process had relied on individual post
management ―with little input from Washington bureaus.‖ The strategy paper recognized that,
―the lack of bureau oversight and consistent, agreed upon criteria has resulted in inconsistency in
LDP designation.‖25 The plan called for the development of ―well-defined, consistent criteria‖
without regard to the number of bidders. The plan included the move from annual reviews to
triennial reviews already underway. However, it called for requiring more senior reviews of post
recommendations by regional and functional bureaus and developing a program to meet
emerging needs outside the triennial review period.

        The strategic plan also outlined the responsible offices and the timeframe for
accomplishing each component action of the six key steps. Many actions would be completed
before the end of 2011, but others would extend as far into the future as 2017.




25
     State Department Strategic Plan for Foreign-Language Capabilities (March 7, 2011), p. 5.
                                              35
                                  SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
